Roman Martinez

555 Eleventh Street, N.W., Suite 1000

Direct Dial: +1.202.637.3377

Washington, D.C. 20004-1304

roman.martinez@lw.com

Tel: +1.202.637.2200 Fax: +1.202.637.2201
www.lw.com
FIRM / AFFILIATE OFFICES
Beijing

December 31, 2020
Scott S. Harris
Clerk of the Supreme Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Moscow

Boston

Munich

Brussels

New York

Century City

Orange County

Chicago

Paris

Dubai

Riyadh

Düsseldorf

San Diego

Frankfurt

San Francisco

Hamburg

Seoul

Hong Kong

Shanghai

Houston

Silicon Valley

London

Singapore

Los Angeles

Tokyo

Madrid

Washington, D.C.

Milan

Seldin v. Estate of Silverman, Petition for a Writ of Certiorari filed
December 31, 2020

Dear Mr. Harris:
I am counsel of record for petitioners in the above petition, which seeks review of a
Nebraska Supreme Court decision confirming an arbitration award under the Federal Arbitration
Act. I am writing to inform the Court that one of the individual petitioners, Millard R. Seldin,
passed away on January 24, 2020, while the case was pending before the Nebraska Supreme
Court. Petitioners filed a motion before that court to substitute petitioner Scott Seldin—who was
already a party—into the litigation as the personal representative of Millard’s estate, but the
Nebraska Supreme Court denied the motion as moot following its decision affirming the district
court’s judgment. As a result, Millard remains listed as a party to the action and a petitioner in
this Court. See Pet. at ii & n.*.
Should this Court grant certiorari, petitioners will move to substitute petitioner Scott
Seldin for Millard both as the personal representative of Millard’s estate and as the new trustee
for petitioner Millard R. Seldin Revocable Trust, dated October 9, 1993. See State Farm Mut.
Auto. Ins. Co. v. Campbell, 537 U.S. 1042 (2002) (No. 01-1289) (granting respondents’ motion
to substitute a party in place of a party who passed away before the grant of certiorari). There is
no question of mootness, as all petitioners are liable for the monetary award entered against them
in the arbitration and confirmed by the Nebraska courts. See Pet. App. 6a, 42a.
I am happy to provide the Court with any other information it may require.

Clerk of the Supreme Court
December 31, 2020
Page 2

Respectfully submitted,

Roman Martinez
of LATHAM & WATKINS LLP
Counsel for Petitioners
cc:

Robert L. Lepp
Sean K. McElenney
Counsel for Respondents

